<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                            VARIOUS MEASURES

=======================================================================

                                  MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                H. Res. 931, H. Res. 1006, H. Res. 1052,
             H. Res. 1055, H.R. 1567, H.R. 4591, H.R. 5723,
                  H.R. 6018, H.R. 6413, and H.R. 6651

                               __________

                            SEPTEMBER 27, 2018

                               __________

                           Serial No. 115-158

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                 ______
                                 

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-305PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7a0b7a887a4b2b4b3afa2abb7e9a4a8aae9">[email&#160;protected]</a> 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H. Res. 931, Expressing the sense of the House of Representatives 
  that the 85th anniversary of the Ukrainian Famine of 1932-1933, 
  known as the Holodomor, should serve as a reminder of 
  repressive Soviet policies against the people of Ukraine.......     2
H. Res. 1006, Condemning the deteriorating situation in Venezuela 
  and the regional humanitarian crisis it has caused, affirming 
  support for the legitimate National Assembly and the Supreme 
  Court, and urging further regional action in support of 
  democracy in Venezuela.........................................     7
  An amendment in the nature of a substitute to H. Res. 1006 
    offered by the Honorable Paul Cook, a Representative in 
    Congress from the State of California........................    14
      An amendment to the amendment in the nature of a substitute 
        to H. Res. 1006 offered by the Honorable Albio Sires, a 
        Representative in Congress from the State of New Jersey..    20
H. Res. 1052, Affirming United States-Australia cooperation on 
  space research, exploration, and utilization...................    21
H. Res. 1055, To affirm strong United States-Liberia ties and 
  support for democratic principles, and call for full 
  implementation of the Truth and Reconciliation Commission 
  recommendations, including the establishment of an 
  Extraordinary Criminal Tribunal for Liberia....................    25
H.R. 1567, To promote economic partnership and cooperation 
  between the United States and Mexico...........................    29
  An amendment in the nature of a substitute to H.R. 1567 offered 
    by the Honorable Joaquin Castro, a Representative in Congress 
    from the State of Texas......................................    35
H.R. 4591, To impose sanctions with respect to Iranian persons 
  that threaten the peace or stability of Iraq or the Government 
  of Iraq........................................................    41
  An amendment in the nature of a substitute to H.R. 4591 offered 
    by the Honorable Adam Kinzinger, a Representative in Congress 
    from the State of Illinois...................................    52
      An amendment to the amendment in the nature of a substitute 
        to H.R. 4591 offered by:
          The Honorable Ted Poe, a Representative in Congress 
            from the State of Texas..............................    61
          The Honorable Joe Wilson, a Representative in Congress 
            from the State of South Carolina.....................    63
H.R. 5273, To reduce global fragility and violence by improving 
  the capacity of the United States to reduce and address the 
  causes of violence, violent conflict, and fragility in pilot 
  countries, and for other purposes..............................    64
  An amendment in the nature of a substitute to H.R. 5273 offered 
    by the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York...................................    87
H.R. 6018, To establish an interagency program to assist 
  countries in the Sahel, Maghreb, and adjacent regions of Africa 
  to improve immediate and long-term capabilities to counter 
  terrorist threats, and for other purposes......................   109
  An amendment in the nature of a substitute to H.R. 6018 offered 
    by the Honorable Michael T. McCaul, a Representative in 
    Congress from the State of Texas.............................   118
      An amendment to the amendment in the nature of a substitute 
        to H.R. 6018 offered by the Honorable Mark Meadows, a 
        Representative in Congress from the State of North 
        Carolina.................................................   127
H.R. 6413, To combat trafficking in human organs, and for other 
  purposes.......................................................   128
  Amendment to H.R. 6413 offered by the Honorable Edward R. 
    Royce, a Representative in Congress from the State of 
    California, and chairman, Committee on Foreign Affairs.......   138
H.R. 6651, To extend certain authorities relating to United Sates 
  efforts to combat HIV/AIDS, tuberculosis, and malaria globally, 
  and for other purposes.........................................   140
  Amendment to H.R. 6651 offered by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New 
    Jersey.......................................................   144

                                APPENDIX

Markup notice....................................................   172
Markup minutes...................................................   173
Markup summary...................................................   175

 
                            VARIOUS MEASURES

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. Pursuant to notice, we meet today to mark 
up 10 bipartisan measures. Without objection, all members may 
have 5 days to submit statements or extraneous materials on 
today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc, and so, without objection, the 
following items previously provided to the members--and also, 
by the way, it's in your packets here--will all be considered 
en bloc and are considered as read.
    And they are House Resolution 931, regarding the Ukrainian 
famine back from 1932-1933; House Resolution 1006, condemning 
the deteriorating situation in Venezuela with the Cook 
Amendment 64 in the nature of a substitute and the Sires 
Amendment 22; House Resolution 1052, affirming United States-
Australia space cooperation; House Resolution 1055, affirming 
strong United States-Liberia ties; H.R. 1567, United States-
Mexico Economic Partnership Act with the Castro Amendment 104 
in the nature of a substitute; H.R. 4591, Preventing Iranian 
Destabilization of Iraq Act with the Kinzinger Amendment 35 in 
the nature of a substitute and the Poe Amendment 114 and Wilson 
Amendment 70; H.R. 5273--this is the Global Fragility and 
Violence Reduction Act of 2018 with the Engel Amendment 115 in 
the nature of a substitute; H.R. 6018, Trans-Sahara 
Counterterrorism Partnership Act of 2018 with the McCaul 
Amendment 109 in the nature of a substitute and the Meadows 
Amendment 165; H.R. 6413, the STOP Organ Trafficking Act with 
the Royce Amendment 143; and H.R. 6651--this is the PEPFAR 
Extension Act of 2018 with the Smith Amendment 113.
    [The information referred to follows:] 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. So I now recognize myself to speak on 
today's business.
    So, first, we have the PEPFAR Extension Act, and for many 
of you who were on the this committee or know the history of 
the committee, in 2003, Congress and the Bush administration 
united in an effort to stem the tide of HIV infections that 
threatened to wipe out a generation of people living in Africa 
and today PEPFAR has proven highly effective.
    It has saved innumerable lives. It has won the U.S. a great 
deal of good will.
    Our committee has held many hearings, briefings--gone to 
Africa on multiple occasions to conduct oversight over the 
supply chain for this lifesaving program, and we will be 
finalizing a report on this important work.
    And I want to thank Chairman Smith and Ranking Members 
Engel and Bass for their dedication to this issue.
    Next, we have the Preventing Destabilization of Iraq Act, 
and this codifies and enhances existing authorities for the 
President to hold Iran and to hold Iran's militias accountable 
for their deadly activities in Iraq.
    These militias are not only a threat to the Iraqi people, 
because earlier this month these militias launched mortars at 
the U.S. Embassy in Baghdad, if you'll remember.
    I want to thank the author, Representative Kinzinger, and 
Chairman Poe, who has held hearings on this issue on his 
subcommittee.
    Next, I'd like to thank Ranking Member Engel and Chairman 
McCaul for the Global Fragility and Violence Reduction Act, and 
this act will allow the U.S. to better coordinate efforts to 
reduce conflict overseas which has caused unprecedented levels 
of human displacement.
    The bill requires strong monitoring and evaluation so our 
overseas missions can learn from their past successes and learn 
from their failures.
    And I'd also like to thank Chairman McCaul and Ranking 
Member Keating for their work on the Trans Sahara 
Counterterrorism Partnership Act because Boko Haram and ISIS 
and al-Qaeda affiliates continue to wreak havoc across West 
Africa. So this legislation will improve U.S. diplomatic 
development and defense programs to confront these threats.
    Next, we have the Stop Organ Trafficking Act. Global 
scarcity for transplant organs has led to an annual global 
black market of $1.2 billion.
    Authoritarian states and human traffickers and even ISIS 
terrorists have profited from this disgusting practice. This 
bill closes a gap in U.S. law that currently fails to recognize 
organ trafficking as a form of human trafficking.
    Next, we have the U.S.-Mexico Economic Partnership Act. As 
our neighbor to the south, Mexico is an important trading 
partner of the United States. So this bill builds on existing 
programs to increase our educational and professional exchanges 
between our two countries.
    Next, I'd like to thank Chairman Cook for his timely and 
important resolution on Venezuela. This resolution further 
affirms Congress' continuing commitment to helping the people 
of Venezuela in their struggle against the Maduro regime's 
brutal and destructive rule.
    And I also thank Representative Donovan for his resolution 
that affirms the strong U.S.-Liberia relationship and our 
commitment to helping the Liberian people promote peace, 
prosperity, and democracy through the ongoing reconciliation 
process. This is an issue that I have long been engaged on 
dating back to the committee's role in pressing for the arrest 
of the notorious war criminal Charles Taylor and then for his 
successful prosecution.
    Next, we have House Resolution 931. This resolution 
recognizes the anniversary of the brutal and manufactured 
famine in Ukraine in the 1930s and it expresses Congress' 
unwavering support for the Ukrainian people in their continuing 
struggle to establish a peaceful, democratic, and secure 
country in which basic human rights are respected.
    And, finally, I thank Representative Castro for his 
resolution which affirms the value of our longstanding alliance 
with Australia and our mutually beneficial cooperation in a 
broad range of areas from defense to space.
    And I now recognize the ranking member, Eliot Engel of New 
York, for his opening remarks.
    Mr. Engel. Thank you, Mr. Chairman, and thank you for 
calling this markup, and thank you to all our colleagues for 
their hard work.
    There are 10 good measures before us today and I am pleased 
to support them all.
    First, I'd like to discuss H.R. 5273, the Global Fragility 
and Violence Reduction Act, which I authored with 
Representatives Poe, McCaul, Keating, and others. Thank you all 
and thanks, Mr. Chairman, for bringing this up today.
    Global levels of violence are at a 25-year peak, and when a 
region faces violence the effects are felt far and wide. 
Economic development backslides, global stability wavers, 
terrorists thrive, and people flee their homes, creating large-
scale refugee and migrant crises.
    So it's critical that we work to prevent this violence from 
happening in the first place. Since September 11th, we have 
learned a lot about what works and what doesn't when it comes 
to stabilizing conflicts and preventing violence from breaking 
out.
    Those lessons should shape American policy. That's what 
this bill does. It establishes an initiative to reduce 
fragility and violence that will align American engagement with 
the lessons we have learned.
    It will require the State Department, USAID, and the 
Department of Defense to coordinate their diplomatic, 
development, and security activities with a focus on 10 
priority countries and it requires best practices as we work 
with partners, measure results, and adapt to changing 
conditions.
    We need to update our Government's policies to prevent 
violence and I ask all members to join me in supporting the 
bill.
    And when unspeakable violence does occur, we need to 
properly recognize the perpetrators of those crimes and hold 
them accountable.
    Mr. Donovan's measure, H. Res. 1055, would help do so by 
reaffirming the historic U.S. relationship with Liberia and 
calling for the Government of Liberia to hold accountable those 
who carry out mass violence and atrocities during the country's 
civil war in the 1990s.
    In places where instability leads to terrorism and 
conflict, it's important that we collaborate with our allies in 
a united interagency effort.
    So I support Mr. McCaul's Trans-Sahara Counterterrorism 
Partnership Act, which strengthens our work across the U.S. 
Government to assist partners in the Sahel and Maghreb regions 
of Africa to counter terrorism and violent extremism.
    Our partnerships with foreign countries are important for 
economic development as well, especially when it comes to our 
neighbors. That brings me to Mr. Cuellar's United States-Mexico 
Economic Partnership Act.
    Mexico is a friend and ally, our third largest trading 
partner, and a country with which we share extraordinarily 
close cultural and familial ties.
    This bill requires the Secretary of State to expand 
educational and professional exchange programs with Mexico. 
It's important that we send a strong message to the Mexican 
people that the United States Congress will not walk away from 
them, despite the damage that has been done to its relationship 
in recent months and years.
    I'll turn now to a resolution condemning the dire 
humanitarian situation in Venezuela sponsored by 
Representatives Cook and Sires.
    The current situation in Venezuela is really just 
horrendous. President Maduro has turned the country into a 
full-fledged dictatorship and victimized his citizens.
    It's a tragedy which requires world leaders to speak out, 
but not with the sort of reckless threats and bellicose 
rhetoric we have heard from the administration.
    This measure represents a strong bipartisan message from 
Congress and I urge all members to support it.
    Keeping countries stable is critical, especially in areas 
where foreign governments are seeking to create disorder.
    Mr. Kinzinger and Mr. Suozzi's Preventing Destabilization 
of Iraq Act works to prevent dangerous outsiders from 
nefariously interfering in Iraq by slapping sanctions on any 
foreign person conducting significant destabilizing activities 
in that country.
    Especially at this time in Iraq, it is important that the 
United States send a clear signal to the Iraqi people and 
regional actors that what happens in Iraq matters to the United 
States, that we have an interest, and I thank my colleagues for 
this bill.
    Next, I'll discuss the PEPFAR Extension Act. As the sponsor 
of the last PEPFAR reauthorization in 2013, I am proud to 
support the bipartisan bill before us today.
    PEPFAR, as the chairman mentioned, is a landmark program 
dedicated to combating the spread of HIV/AIDS. Thanks to 
PEPFAR, 14 million men, women, and children are on lifesaving 
treatment and more than 2 million babies were born HIV-free to 
mothers living with HIV. This is remarkable progress and we 
must keep striving for more.
    The PEPFAR Extension Act before us today will help ensure 
this phenomenal work continues for another 5 years. It's an 
excellent program with bipartisan support and I urge all 
members to join me in voting for this measure.
    I'd also like to recognize Mr. Castro's resolution 
affirming U.S.-Australia cooperation on space research and 
exploration. I support this measure that highlights this 
important area of international cooperation with one of 
America's closest friends and allies.
    Next, Congressman Sandy Levin's measure that recognizes the 
85th anniversary of the 1932 famine in Ukraine--as we watch the 
Russian occupation in Crimea and aggression against eastern 
Ukraine, we are reminded that this horrific human tragedy was 
designed by Stalin to crackdown on Ukrainian resistance to 
Soviet rule.
    With this measure, Congress solemnly remembers the millions 
of Ukrainians who perished in this genocide. I urge all members 
to support it.
    Another good bill before us today is the STOP Organ 
Trafficking Act. I want to thank Representative Deutch and 
Trott for reintroducing this measure, which passed with 
overwhelming support in the last Congress.
    The need for transplant organs throughout the world has led 
to a gruesome underground trade of organs. It's horrifying and 
we need to have laws and research directed at solving this. 
This bill is a step in the right direction. I urge all members 
to support the measure.
    Once again, thank you to all our members. Thank you for 
your hard work on this committee over the last 2 years. I want 
to just say at the end of this markup we will have a brief 
meeting here in the chairman's room with the Prime Minister of 
Kosovo, and I hope that all members of the committee on both 
sides will join us for a few minutes to meet with Ramush 
Haradinaj, the Prime Minister of Kosovo.
    So thank you for everything, Mr. Chairman, and I yield 
back.
    Chairman Royce. Thank you.
    Paul Cook of California seeks recognition.
    Mr. Cook. Chairman Royce, thank you for holding this 
important markup today.
    I am pleased to be joined by Ranking Member Engel, Chairman 
Emeritus Ros-Lehtinen, and Subcommittee Ranking Member Sires, 
along with several other members, in sponsoring House 
Resolution 1006 on Venezuela.
    The situation in Venezuela worsens every day with 
hyperinflation projected to reach an unimaginable 1 million 
percent by the end of the year.
    China and Russia continue bankrolling Venezuela's failed 
economy and Cuban intelligence agents have enabled Nicolas 
Maduro to suppress the opposition and illegitimately cling to 
power.
    More than 2.3 million Venezuelans have fled the country, 
creating a vast regional migration and potential public health 
crisis as countries have struggled to respond.
    This week, President Trump and Vice President Pence 
affirmed U.S. commitment to supporting the Venezuelan people. 
The announcement of an additional $48 million for humanitarian 
assistance brings total American support to over $118 million 
in aid to Western Hemisphere countries responding to the 
Venezuelan migration crisis.
    The additional U.S. sanctions on four members of Nicolas 
Maduro's inner circle and seizure of $20 million of private 
jets are just critical to show the criminality and corruption 
of the Maduro regime at the expense of the Venezuelan people 
and emphasize that loyalty to Maduro comes at a steep cost. 
These efforts build on previous U.S. sanctions as well as those 
by Canada, the European Union, and Switzerland.
    Moving forward, we need to see more actions by the U.S. and 
countries in the Western Hemisphere. House Resolution 1006 that 
we are discussing today recognizes and applauds the efforts by 
the Lima Group, the Organization of American States, as well as 
the 19 countries that voted in favor of the most recent OAS 
resolution on Venezuela last June.
    Notably, there are another 12 countries in Latin America 
and the Caribbean who voted against or abstained from voting on 
that OAS resolution.
    Today, there is no excuse for enabling the continuation of 
tyranny in Venezuela or the corresponding havoc on the region. 
This resolution affirms the U.S. support for the legitimate 
National Assembly and Supreme Court and urges countries in the 
region, especially those 12 who have been reticent to take 
action, to support democracy in Venezuela, and an investigation 
under international law into crimes against humanity by the 
Maduro regime.
    Recent leadership by the Governments of Argentina, 
Colombia, Chile, Peru, Paraguay, and Canada to seek to hold 
Maduro accountable for his crimes against the Venezuelan people 
is welcome news and I commend these governments' actions.
    In conclusion, the resolution also urges further U.S. 
sanctions and public diplomacy efforts to expose corruption 
among Venezuelan officials and greater regional and global 
coordination on imposing sanctions on Venezuelan officials 
responsible for the ongoing crisis and it demonstrates the 
continuing and unwavering support of the U.S. Congress for the 
people of Venezuela and all efforts to end this crisis and 
support a return to democracy.
    Thank you. I yield back.
    Chairman Royce. Thank you, Mr. Cook.
    Mr. Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman, and thank you to all the 
members and everybody who worked on the pieces of legislation 
in front of us today.
    The bills and resolutions considered today on Australia, 
Ukraine, Venezuela, Liberia, Mexico, Iran, global fragility, 
Counterterrorism in West Africa, organ trafficking, and HIV/
AIDS address important issues in the world.
    And I'd first like to thank the committee for considering 
my resolution that I authored with Congresswoman Elise Stefanik 
of New York on supporting greater cooperation on space 
research, exploration and utilization with our Australian 
allies.
    This July, the Australian Government set up their first 
space program. This year marks 100 years of close cooperation 
between the United States and Australia, dating back to the 
First World War where the two countries fought side by side.
    The alliance has only deepened in the century that followed 
to include diplomatic, cultural, and economic cooperation in 
addition to space exploration.
    In fact, Australia played a part in one of America's most 
notable achievements in space. The first images of Neil 
Armstrong on the moon were relayed to the American people and 
the world through radio stations in Australia.
    There is value in the United States' deepening cooperation 
with our allies and partners in exploring space and finding 
commercial opportunities outside our planet as we seek to 
improve our understanding of the universe and our place within 
it and I appreciate the support of my colleagues in this 
measure and would ask for their support on it.
    I would next like to voice my support for the United 
States-Mexico Economic Partnership Act introduced by Ranking 
Member Engel and by my colleague from Texas, Henry Cuellar.
    At a time when we have a President that's consistently 
attacked Mexico and Hispanic Americans in our own nation, this 
bill supports greater educational and economic ties between the 
United States and Mexico when we need it most.
    A friendly productive relationship with our neighbor to the 
south is vital for the continued prosperity and security of 
Americans, especially those in communities from border states 
like mine, Texas.
    The programs the bill supports through the 100,000 Strong 
in the Americas Initiative will help communities on both sides 
of the border strengthen academic opportunities, commerce, 
energy infrastructure, and medical care, and I'd like to thank 
the committee for marking this important measure up.
    Next, I'd like to thank Chairman Cook and Ranking Member 
Sires for introducing the resolution on Venezuela that we are 
considering today.
    The situation in the country is dire with the failed 
policies of Nicolas Maduro resulting in an economic collapse 
and the flight of millions of Venezuelan citizens to 
neighboring countries.
    I urge my colleagues on this committee to support this 
measure and to support efforts by the Organization of American 
States and our partners in the region to support democracy and 
fight for democracy in Venezuela.
    I also would like to thank the countries in the region, 
particularly Colombia, that have taken in so many of those that 
are fleeing the dire circumstances and situation in Venezuela.
    All countries, including the United States, have a moral 
obligation to help those who flee persecution and catastrophe 
and are in desperation, and I am disappointed that the 
administration has reduced the number of refugees our country 
will be taking in this coming year down to 30,000 from an 
already low 45,000.
    We are closing our doors and putting up walls at a time 
when there are many more people displaced around the world from 
their homes. In fact, today there are about 70 million around 
the world who are displaced.
    I am proud to support the other measures as well. Thank 
you, Chairman. I yield back.
    Chairman Royce. Thank you.
    Mr. Dan Donovan of New York.
    Mr. Donovan. Thank you, Chairman Royce and Ranking Member 
Engel, for holding this markup today.
    We have many important measures on the calendar and, as 
always, it's a pleasure to work in a bipartisan manner to 
tackle tough foreign affairs matters and push toward 
legislation that will make a difference in the world.
    Our schedule this week, both for hearings and this markup, 
has a heavy emphasis on global human rights. Of all the soaring 
rhetoric on this topic, our Founding Fathers said it best in 
the Declaration of Independence:

        ``We hold these truths to be self-evident that all men 
        are created equal and they are endowed by their creator 
        with certain unalienable rights, that among these are 
        life, liberty, and the pursuit of happiness.''

    As this committee has seen time and time again, chaos lies 
in the wake of human rights violations, and when that happens 
it causes a country and even an entire region and continent to 
become destabilized.
    This then creates a downward spiral of violence. Murder, 
rape, torture, and the lack of human dignity makes an area ripe 
for radicalization and leads to the absence of even the most 
basic sanitary and health services.
    This dangerous combination then threatens our security here 
in the United States. Protecting human rights across the globe 
is not just morally the right thing to do, but it is also vital 
to our own national security.
    Stopping war crimes before they happen is just as important 
as ensuring that justice prevails afterwards. Without justice, 
there cannot be healing for the victims and the cycle of 
turbulence will start anew.
    This is why I am proud to sponsor H.R. 1055, to affirm 
strong United States-Liberian ties and support for democratic 
principles and call for full implementation of the Truth and 
Reconciliation Commission recommendations including the 
establishment of an extraordinary criminal tribunal for 
Liberia.
    My district, Staten Island and south Brooklyn, is home to 
thousands of Liberians who have fled the turbulence of civil 
war. My constituents have directly told me how important it is 
to them that Liberia establish an extraordinary war crimes 
tribunal.
    Liberia itself recommended the establishment of a war 
crimes tribunal in its own Truth and Reconciliation Commission. 
Liberia's current President, President George Weah, called for 
the establishment of a war crimes tribunal in 2004 as a UNICEF 
goodwill ambassador.
    There is time to put this into action. At this very moment, 
people who have committed unspeakable war crimes hold positions 
in Liberia's Government.
    For example, Senator Prince Y. Johnson is an infamous war 
lord who tortured and murdered former President Samuel Doe. 
There is a video of Johnson's sickening mutilation of President 
Doe where Johnson is, despicably, sipping on a beer, fanned by 
an assistant, while Johnson's minions cut off Doe's ear.
    With the presence of Johnson and others in the current 
government, we are seeing Liberia's slow creep backward toward 
the murderous mayhem of its civil war days.
    Liberians are, rightfully, clamoring for justice. Without 
it, I fear there will be further violence and turbulence, which 
nobody wants to see.
    This is why it is so crucial to call upon Liberia and 
President Weah to establish a war crimes tribunal.
    Thank you, Chairman Royce, my Democratic co-leader, 
Congressman Hank Johnson, and all of our other co-sponsors for 
supporting this resolution.
    I would also like to thank the staff committee, especially 
Meg, Sean, and Marie, for their work on this matter. I urge all 
my colleagues to support this resolution and continue to seek 
justice across the globe.
    Mr. Chairman, I yield the remainder of my time back.
    Chairman Royce. Thank you, Mr. Donovan.
    Mr. Albio Sires of New Jersey.
    Mr. Sires. I want to start by thanking Chairman Royce and 
Ranking Member Engel for bringing up these measures today. The 
10 bipartisan measures being considered today is a testament to 
the continued efforts of Chairman Royce and Ranking Member 
Engel to set aside partisanship and ensure this committee gets 
things done.
    I'd like to speak in support of House Resolution 1006, an 
important resolution introduced by Chairman Paul Cook. This 
resolution highlights the deteriorating situation in Venezuela 
and the regional humanitarian crisis it has caused.
    It also reaffirms support for the legitimate National 
Assembly and urges further regional action to help the 
Venezuelan people.
    The resolution supports the findings of the Organization of 
American States' panel of experts that states that there are 
reasonable grounds to believe that the government of Nicolas 
Maduro has committed crimes against humanity and urges the 
region to support an investigation under international law.
    I would also like to thank the chairman and his staff for 
working with us on our amendment to highlight Maduro's 
continued crackdown on political expression.
    Deputy Juan Requesens was detained last month as Maduro 
used an alleged assassination attempt in August as an 
opportunity to further crack down on his opposition.
    He is just one of many who have been detained and 
disappeared as Maduro tries to further consolidate power.
    I want to thank Chairman Royce, Chairman Cook, and Ranking 
Member Engel for their continued attention to the plight of the 
Venezuelan people. I support the resolution and urge my 
colleagues to do the same.
    Thank you, and I yield back the balance of my time.
    Chairman Royce. Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    I add my support for all the measures before us today. I'd 
like to offer some brief remarks on just a few.
    First, I am proud to be an original co-sponsor along with 
you, Mr. Chairman, as well as our ranking member, Mr. Engel, 
Karen Bass, my fellow co-chair of the HIV/AIDS Caucus, Barbara 
Lee of Chris Smith's PEPFAR Extension Act.
    This important bill would extend this longstanding 
bipartisan lifesaving program for another 5 years. In 2003, 
President George W. Bush called on Congress to take action in 
responding to the global crisis of HIV/AIDS and I am proud that 
not only did we answer the President's call but this committee 
took a leading role in the response.
    I will never forget standing in the Oval Office as 
President Bush signed this essential program into law. When 
PEPFAR began 15 years ago, only 50,000 people in Africa were 
receiving HIV treatment.
    Today, there are over 14 million people receiving HIV 
treatment globally and over 2 million babies are born HIV-free 
to HIV-positive women. Amazing.
    PEPFAR is truly a shining example of American leadership 
and what our country can achieve when our branches of 
government work together in a bipartisan manner.
    The United States must continue to lead the global response 
to HIV/AIDS, build on the strong partnerships that we have 
built around the world.
    It continues to be the largest and most successful 
humanitarian aid commitment made by any nation in history. I 
urge all of my colleagues to give it their full support.
    We see some of their proud advocates here today in the 
audience.
    Next, I am also proud to be an original co-sponsor of our 
Western Hemisphere Subcommittee Chairman Paul Cook's House 
Resolution 1006.
    This important resolution condemns the Maduro regime for 
its role in the deterioration of Venezuela's democratic 
institutions and for the creation of a humanitarian crisis that 
grows worse by the day.
    Maduro's failed policies have left Venezuelan people 
malnourished, sick, poor, without food, without basic medical 
supplies.
    The United States and our partners have a responsibility to 
do everything that we can to ensure humanitarian aid reaches 
the people of Venezuela and I am glad that this resolution 
calls not just for more assistance but for greater coordination 
in the region and beyond.
    I commend the administration for allocating funds to help 
Venezuelan refugees in Colombia and for its continued targeted 
sanctions against the regime including those this very week 
against Maduro's inner circle.
    Whether it's people like Cilia Flores, Maduro's wife, or 
Diosdado Cabello, the head of the sham Constituent Assembly, we 
must continue putting pressure on those responsible and sending 
a strong message that the U.S. will not sit idly by as the 
regime continues its repression.
    We must also, as this bill does, express our unwavering 
support for Venezuela's legitimate democratic institutions like 
its duly elected National Assembly and the Supreme Court, as 
well as civil society.
    I thank my colleague, Paul Cook, and Albio Sires for their 
leadership on this resolution and for their tireless support 
for the people of Venezuela.
    I offer my support also for my friend Adam Kinzinger's 
bill, the Preventing Iran Destabilization Act. This important 
bill would impose sanctions against a multitude of Iranian 
militias, proxies, terrorist groups, and other nefarious 
entities operating in Iraq who are undermining our efforts at 
stabilization.
    As Mr. Kinzinger knows firsthand, Iran's activities in Iraq 
only benefit one country--Iran.
    And finally, I'd like to say just a few words of support of 
Mr. McCaul's bill, H.R. 6018, the Trans-Sahara Counterterrorism 
Partnership Act. Launched in 2005, this is an important program 
for building partner country capacity in a critical region of 
the world.
    This bill both codifies the partnership into law while 
helping to sharpen its focus with some necessary oversight. I 
offer my full support for this as well as all of your bills.
    As always, Mr. Chairman and Ranking Member, I yield back.
    Chairman Royce. Thank you. Thank you.
    We go now to Mr. David Cicilline from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
you and to the ranking member of this committee for bringing 
forth these important bills and resolutions.
    While the world is facing the largest refugee crisis in 
recorded history with 22.5 million refugees worldwide, the 
Trump administration has cut refugee admissions for 2019 to a 
record low of 30,000.
    In our own hemisphere, conditions in Venezuela have led to 
the largest migration crisis of its kind in recent Latin 
American history. According to the United Nations, more than 
2.3 million Venezuelans have left their country since 2014.
    It's important for the United States to stand with partners 
in our hemisphere to condemn the actions of the Maduro regime, 
expose corruption among Venezuelan officials, support 
democratic actors, and provide humanitarian assistance to the 
people of Venezuela.
    I am proud to support H. Res. 1006 and to be a co-sponsor 
of this resolution, which condemns the deteriorating situation 
in Venezuela and the regional humanitarian crisis it has caused 
and calls on the President to increase support to the 
Venezuelan people.
    H. Res. 1055, which affirms strong United States-Liberia 
ties and support for democratic principles and calls for full 
implementation of the Truth and Reconciliation Commission 
recommendations including the establishment of an extraordinary 
criminal tribunal for Liberia, affirms the U.S. commitment to 
helping the Liberian people promote peace, prosperity, and 
democracy through the reconciliation process and supports the 
efforts of the State Department and USAID in advancing the rule 
of law, effective governance, and a strong civil society in 
Liberia.
    In March of this year, the United Nations' mission in 
Liberia successfully completed its mandate to help stabilize 
and develop Liberia following its civil wars.
    I traveled to Liberia in 2013 and saw firsthand the amazing 
progress achieved by the people of Liberia in cooperation with 
the United States, the U.N., and the international community.
    Under the 2003 comprehensive peace agreement, a Truth and 
Reconciliation Commission was established to address the 
widespread atrocities that had been committed.
    However, Liberia has yet to hold a single person to account 
for past abuses. The United States and Liberia share close 
historical, political, and economic ties and it's right that we 
should raise our voices alongside the international community 
to call upon the Liberian Government to establish a process of 
accountability to ensure that the perpetrators of gross human 
rights violations and war crimes are brought to justice.
    I am proud to support and co-sponsor this measure and 
encourage my colleagues to do the same.
    I am also proud to support H.R. 1567, the United States-
Mexico Economic Partnership Act. The United States and Mexico 
also share a long history of friendship and partnership.
    The past and futures of both our nations are intertwined. 
Today, at a time when divisive rhetoric is easier to come by 
than a kind word, it's more important than ever to strengthen 
the ties of friendship and cooperation with our neighbors to 
the south.
    By increasing educational and professional exchanges 
between our countries, the United States-Mexico economic 
partnership will help citizens of both nations to build 
relationships, share knowledge, and create opportunities that 
will help both countries grow and prosper.
    H.R. 6413, the strategy to oppose predatory organ 
trafficking, is an important step toward--forward in addressing 
a horrific practice and protecting the most vulnerable.
    Human trafficking for organ removal is at once an egregious 
human rights abuse and a form of human trafficking. Motivated 
by demand, international criminal organizations have taken the 
shortage of organs as an easy opportunity to pressure people 
from countries living in poverty into selling their organs.
    By recognizing organ trafficking in the U.S. human 
trafficking framework and requiring reporting on trafficking of 
persons for the removal of their organs, this bill shines a 
light on this nightmarish practice.
    And, finally, H.R. 6651, the PEPFAR Extension Act of 2008, 
I've always been a proud and vocal proponent of PEPFAR and I am 
glad that it has earned bipartisan support from Congress and 
multiple administrations.
    This program has enabled expanded access to anti-viral 
therapies for those suffering with HIV and AIDS, which has led 
to a decrease in deaths from this devastating disease all 
around the world.
    It support more than 14 million people with lifesaving 
anti-viral treatment and has contributed to the well-being of 
more than 2.2 million babies born HIV-free to pregnant women 
living with HIV.
    It's critical that the United States continue to play a 
leadership role in the fight against this disease and that's 
why I am, once again, proud to support and co-sponsor the 
extension of PEPFAR in H.R. 6651, the PEPFAR Extension Act of 
2008.
    I am proud to support all these measures and urge my 
colleagues to do the same, and yield back the balance of my 
time.
    Chairman Royce. Thank you, Mr. Cicilline.
    Tom Garrett of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman, and thanks to the 
members and the committee for bringing forth these meaningful 
pieces of legislation.
    I am going to isolate my comments specifically on H. Res. 
1006 and Venezuela and take this opportunity to speak to the 
tragic pattern that we have demonstrated across over 100 years 
of the failure to learn the lessons taught to us very clearly 
by history.
    Mr. Chairman, this legislation is frustrating only in so 
far as I wish we could do more--the sense of Congress regarding 
a tragedy that's literally impacted millions is the right thing 
to do and I am glad to support it and add my name to it.
    And yet, time and again we have watched as individuals have 
been swept to power--Hugo Chavez and his successor, Nicolas 
Maduro--under promises to create utopian paradises by virtue of 
government regulation.
    When this government regulation occurs at the expense of 
free markets, when it occurs vis-a-vis the disincentivization 
of individual initiative, these promises of fairness manifest 
themselves in the uniform distribution of poverty and 
suffering.
    Whether Cambodia or Maoist China, whether the former Soviet 
Union or Cuba, the patterns and outcomes are all the same, and 
it is many times that I have implored my peers and superiors on 
this committee to remember the words of Arthur Vandenberg, that 
politics stop at the water's edge.
    So I will leave out American political leaders and their 
comments on Venezuela over the last going into 20 years. But 
let me say when luminaries and thought leaders like Michael 
Moore and Sean Penn join hands with people like Hugo Chavez, 
when the leader of the British Labour Party, Jeremy Corbyn, 
suggests that Hugo Chavez and, later, Nicolas Maduro will work 
to advance the cause of people struggling across Venezuela, 
what we have seen throughout the course of history is literally 
the destruction of lives.
    Blessed with vast mineral resources, Venezuela, not long 
ago, was the wealthiest, most prosperous country in Central and 
Latin America. We now see, literally, millions displaced and a 
population wherein the average weight loss over the last 365 
days is closing on 20 pounds. Maybe I should move there.
    Having said that and making light, it's a tragedy that need 
not repeat itself.
    Mr. Chairman, before I came to this body and after I leave 
it, I will consider myself a historian and some lessons are 
written large on the pages of history, if we are only willing 
to listen.
    No less a thought luminary than Gandhi once stated that man 
cannot be made good by law, and while I seek the best for the 
collective, I believe to my very core that the best of the 
collective is achieved by empowering the individual.
    Therefore, Mr. Chairman, it's with some satisfaction that I 
lend my support to H. Res. 1006 but some disappointment that we 
seem condemned to repeat the mistakes of the past.
    Thank you for your time, and I'd yield back.
    Chairman Royce. Thank you. We appreciate your observations, 
Mr. Garrett.
    I would say the advantage of the sense of Congress on 
sanctions and us moving this measure and the discussions we 
have had in subcommittee and full committee on it have had a 
desired effect in terms of pressuring the administration, and 2 
days ago they did announce sanctions on Venezuela.
    But I think your point is well taken and but I did want to 
make the point that our actions here and our pressures here 
often have results.
    We go now to Tom Suozzi of New York.
    Mr. Suozzi. Chairman Royce and Ranking Member Engel, thank 
you again for your continued bipartisan work on this 
committee--the measures put forward here today--another example 
of the great work this committee has done under your bipartisan 
leadership.
    Iran is continuing to use corruption and violence and their 
malign influence to manipulate Iraq's political system. It's 
threatening Iraq's peace and stability and undermining their 
economic reconstruction.
    I'd like to speak today in support of H.R. 4591, which I am 
co-sponsoring, the Preventing Destabilization of Iraq Act, and 
I want to thank Representative Kinzinger for his leadership on 
promoting stability throughout the Middle East.
    At the United Nations this week, Iranian President Rouhani 
spoke against foreign interventions and imposition of ``alien 
wishes of the people of the region.''
    In an Atlantic op-ed last year, his Foreign Minister Zarif 
complained about countries which support ``nonstate actors who 
wreak havoc through terror.'' They both might want to look in 
the mirror.
    In Iraq, Iranian-backed militias have committed human 
rights abuses for years, executing and beating civilians, and 
looting homes.
    These same militias have taken roles to try and influence 
Iraq's nascent political system. In Iraq's recent elections, 
the IRGC Commander Qasem Soleimani himself has been spending 
time coercing Shi'ite parties with differing views to form a 
paramilitary parliamentary majority, one that presumably would 
be in favor of his agenda.
    H.R. 4591 would sanction any foreign person--not just 
Iranians, but all--conducting significant destabilizing 
activities in Iraq.
    Corruption is endemic and rampant in Iraq's political 
system. As a representative government of the will of the 
people, it is key to long-term stability.
    This version of the bill also includes important language 
from Representative Poe that would require our Government to 
look into designating two of Tehran's proxies in Iraq--HHN and 
AAH--as foreign terrorist organizations.
    By 2011, AAH claimed responsibility for thousands of 
attacks on U.S. and coalition forces. HHN, a hybrid of fighters 
from AAH and Hezbollah brigades of Iraq, has also played an 
active role against Americans during the Iraq war and now in 
Syria's civil war, boasting a unit in the Golan Heights 
targeting Israel.
    These groups must be called what they are--terrorists.
    On a different note, I want to make sure I speak in special 
support of PEPFAR Extension Act--H.R. 6651. I want to thank co-
sponsors Chris Smith and Barbara Lee.
    This committee continues to do bipartisan work to promote 
human life and dignity worldwide by seeking to address acute 
humanitarian needs and to reduce global poverty.
    U.S. goodwill reflects our shared value that all people 
deserve opportunities to reach their fullest potential and to 
promote the common good.
    PEPFAR is one of the most successful programs demonstrating 
U.S. leadership. The reauthorization ensures that 10 percent is 
set aside for some of the most vulnerable among us--orphans and 
vulnerable children.
    These programs provide psychological care and support 
household economic strengthening, legal protection, education, 
health and nutrition, and family and community strengthening 
services.
    Strengthening the systems that support vulnerable children 
and families ensures that children living with the HIV virus 
receive the support they need and the HIV negative children 
know their status and remain negative.
    Thank you for ensuring that children are protected as part 
of PEPFAR reauthorization, and I yield back the balance of my 
time.
    Chairman Royce. Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
for your leadership in bringing all of these bills to the 
committee and, ultimately, to the floor.
    I want to thank you for marking up my bill, H.R. 6651, the 
PEPFAR Extension Act of 2018--a 5-year extension of a landmark 
law authored by Chairman Henry Hyde in 2003.
    Members who were here at the time might recall that Henry 
Hyde was eloquent, aggressive, and persuasive, because at that 
point we knew the pandemic was exploding all over the world, 
particular in Africa, and that man whose portrait sits to my 
right, your left--Henry Hyde--was absolutely tenacious in 
making sure that we acted and we acted promptly with sufficient 
resources to really get the job done.
    I'll never forget his eloquence. He compared the HIV/AIDS 
pandemic to the Black Death--to the bubonic plague that ravaged 
all of Europe--and he said, if we don't act who will.
    And when we acted, Europe and many other countries began to 
follow suit and very, very critical masses of money and 
technical expertise and health interventions began to flow.
    First proposed and strongly pushed by President Bush and 
continued through the Obama administration and into the Trump 
administration, PEPFAR has been and continues to be an historic 
sweeping health and humanitarian initiative that has saved the 
lives of millions, and it is a triumph of bipartisanship.
    And let's not forget that the legislation also includes 
tuberculosis. In my committee we have held hearings just 
recently about how TB is now the leading infectious disease in 
the world and with multi-drug resistance making some people 
incurable--because TB is usually very curable--it is a problem.
    So this money continues to be deployed in order to combat 
that and, of course, malaria, which ravages especially children 
especially in hot tropical climates, including and especially 
in Africa and some parts of Asia, this legislation, again, 
continues to provide very, very important money to those 
individuals in health care.
    It is estimated that some 16 million lives have been 
saved--16 million--due to PEPFAR, and 13 countries are on track 
to control the HIV/AIDS epidemic by 2020.
    Consider that when PEPFAR was launched 15 years ago--and I 
know my good friend and colleague, Ms. Ros-Lehtinen, pointed 
this out as well--only 50,000 people in Africa had access to 
any lifesaving anti-retroviral treatment, or ARVs. Now, 
roughly, 14 million men, women, and children are receiving such 
ongoing treatment because it has to be ongoing in order to be 
efficacious in treating the HIV/AIDS pandemic.
    PEPFAR has also made possible the end of mother-to-child 
transmission of HIV/AIDS. Some 2.2 million babies have been 
born HIV-free to HIV-positive mothers.
    It used to be the mom had the disease during the child 
traversing through the birth canal, it was highly likely that 
that girl or boy would contract the disease as well.
    The lives of so many have been enhanced, not just those 
infected by HIV/AIDS, tuberculosis, or malaria, but the family 
members and friends who have their loved ones with them now, 
today, are thriving because of this Henry Hyde initiative, 
which was backed so and pushed so strongly by President Bush 
and, of course, in a bipartisan way.
    Our group of bipartisan original sponsors have sought to 
extend the reauthorization of PEPFAR, as I said in the 
beginning, for another 5 years.
    I want to thank my lead Democratic sponsor Barbara Lee for 
her commitment to extending PEPFAR as well as to commend the 
leadership shown by Chairman Royce, Ranking Member Engel, 
Chairwoman Emeritus Ileana Ros-Lehtinen--and we will miss her--
and my distinguished colleague on the Africa, Global Health, 
Global Human Rights, and International Organizations 
Subcommittee, my good friend and colleague, Ranking Member 
Karen Bass.
    Upon consultation with Ms. Lee, we did decide to add an 
amendment which would explicitly extend programs aimed at 
supporting orphans and vulnerable children until 2023 as well.
    This amendment has the support of a number of organizations 
including faith-based partners such as Catholic Relief Services 
and World Vision.
    Finally, I also want to single out the extraordinary work 
of our PEPFAR coordinator, Ambassador Deborah Birx and thank 
her for her leadership. First serving in the Obama 
administration and now in the Trump administration, Ambassador 
Birx has been a model of results-oriented data-driven 
professionalism.
    Her compassionate commitment to those who suffer from HIV/
AIDS, TB, and malaria is truly inspiring and remarkable.
    On another bill--and I won't speak to them all, just two 
more, Mr. Chairman, because they are all good. I'd like to 
thank Mr. Dan Donovan, a valued member of our Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations for his leadership that he has shown with regards 
to Liberia.
    Congressman Donovan spearheaded a hearing which this 
subcommittee held on the future of democracy and governance in 
Liberia. He is a great friend of Liberia and of the Liberian-
American community.
    With House Resolution 1055, Mr. Donovan has again pointed a 
way forward for Liberia, a country which has emerged from a 
gruesome civil war in 2003. While it is true that the Special 
Court for Sierra Leone--we have had David Crane testify here 
many times at our subcommittee--the lead prosecutor--and they 
are the ones who convicted Charles Taylor, who never thought he 
would be held to account and he got 50 years and is now in 
prison for his horrific crimes in that quest for justice and 
there is a continued work for Truth and Reconciliation but it 
is unfinished.
    To solidify the progress it has made in Liberia it is 
important that the report of recommendations issued by that 
Truth and Reconciliation Commission in 2008 be implemented, 
including its recommendation for establishing an extraordinary 
criminal tribunal for Liberia.
    This is a key item called for by Mr. Donovan's H. Res. 
1055. Liberia is a country with longstanding historical ties 
with the U.S. and our friendship and common bonds with Liberia 
are deep and genuine.
    Liberia and Liberian Americans have no greater friend, I 
would say, than our good friend, Dan Donovan. You have been 
tenacious. Thank you.
    Finally, I just want to make a comment on the STOP Organ 
Trafficking Act and strongly support it. This act amends the 
Trafficking Victims Protection Act of 2000 by adding the 
involuntary removal and selling of organs as actionable items 
to be included in the TIP Report and all things that we do vis-
a-vis trafficking persons.
    Nowhere is there more evidence of this gruesome trade than 
in the People's Republic of China, and I've held hearings on it 
on the China Commission, which I also chaired.
    In the nearly 20-year effort to eradicate the Falun Gong, 
the Chinese Communist Party has illegally imprisoned and killed 
countless Falun Gong practitioners.
    Researchers David Kilgour, David Matas, and Ethan Gutmann 
have conducted detailed investigation and estimated that 
between 45,000 to 65,000 Falun Gong practitioners were killed, 
murdered, for their organs, which were then sold for profit. 
Those estimates may now be even higher.
    The Chinese Government continues to insist that accounts of 
torture, sexual crimes, and arbitrary detention and all of the 
human rights abuses for which they are known for of Falun Gong 
practitioners and others are mere rumors. And yet, the evidence 
points precisely to the opposite.
    Mr. Chairman, this bill is an excellent next step in 
countering this vile trade and will bring us one step closer to 
ensure that life and human dignity are respected.
    However, we should also be calling on the Department of 
State and the international medical community to do detailed 
analyses and studies on the trafficking of persons for the 
purpose of selling their organs and make every effort to ensure 
that countries such as China are held accountable.
    Again, I want to thank Congressman Trott for his 
leadership. This is a tremendous bill and deserves the 
unanimous support of every member of this committee and the 
House.
    Chairman Royce. And we go now to Mr. Espaillat of New York.
    Mr. Espaillat. Thank you, Mr. Chairman and Ranking Member 
Engel. Thank you for continuing your bipartisan work in this 
committee.
    There are a number of important pieces of legislation 
before this committee and I would like to highlight a few I 
find to be particularly important.
    First, H.R. 1006, condemning the deterioration of the 
situation in Venezuela, recognizes the humanitarian crisis 
underway in that country, which has led to terrible food and 
health shortages, therefore, propelling many Venezuelans to 
flee to other countries, further adding to the refugee crisis.
    In addition, the Maduro administration continues to crack 
down on the opposition and jail many of its leaders. It is 
important that we work with our allies to address this crisis 
and that we further our humanitarian assistance and 
multilateral sanctions.
    The people of Venezuela are hungering for democracy and 
they are starving for food, and so this is fastly becoming a 
dramatic humanitarian crisis the region, propelled and pushed 
by the Maduro dictatorship. We must continue to do more to aid 
the people of Venezuela.
    H.R. 1567, the United States-Mexico Partnership Act--this 
bill, which requires a strategy to further economic cooperation 
and prioritize educational and professional exchange programs 
between our country, highlights the crucial relationship 
between our countries.
    This is vital at a time when the relationship between our 
nations have strained by the administration approach to 
negotiating with our neighbors.
    Mexico continues to be a friendly neighboring country. We 
must treat it as such. I think this particular resolution 
furthers that rather than very harsh adversarial language that 
often puts people apart.
    H.R. 4591, the Preventing Iranian Destabilization of Iraq 
Act, will sanction any person who is meddling in Iraq and 
causing further deterioration of the situation there.
    Iran's region meddling and state-sponsored terrorism must 
be reined in and we cannot allow for Iran to continue in this 
fashion.
    I strongly support these and the other bills before the 
committee.
    Thank you, Mr. Chairman, and I yield back the remaining 
part of my time.
    Chairman Royce. Thank you.
    We go now to Mr. Ted Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I am proud to support Mr. Kinzinger's bill, H.R. 4591, the 
Preventing Destabilization of Iraq Act. Just yesterday, my 
subcommittee held a hearing on Iran's growing influence in 
Iraq.
    It is my opinion and the opinion of others that Iran is 
trying to make Iraq a puppet state of Iran. Every witness made 
it clear the biggest threat to Iraq's continued stability and 
sovereignty today is Iran.
    On the ground, those who do Tehran's bidding in Iraq are 
the multitude of Iranian proxy militias operating in the 
country. They have blood on their hands of Americans, Iraqis, 
Syrians, and Kurds.
    In May, these terrorist criminals won increased power in 
Iraq's Council of Representatives. We must do everything we can 
to isolate these terrorist groups--these militias.
    They not only directly threaten our soldiers and diplomats 
but they threaten the very future of a democratic and stable 
Iraq.
    I am glad the committee has included the key components of 
my Iran Proxies Terrorist Sanction Act and Mr. Kinzinger's 
bill. This will target two Iraqi militias that act as Iran's 
foreign legion in Iraq and Syria.
    These two groups, known as AAH and HHN, are terrorist 
groups. They have killed Americans and just last month fired 
mortars at the U.S. Embassy in Baghdad and the U.S. consulate 
in Barra.
    Yet, despite the countless evil acts, they have not been 
designated as terrorist groups by our State Department. 
Instead, when my staff visited our Embassy in Baghdad recently 
these State Department officials scoffed at the proposal to 
sanction these murdering proxies, saying it would cause the 
groups to be aggressive against the U.S.
    Well, the inaction allowed AAH and HHN and their Iranian 
masters to gain substantially more political power and then, in 
spite of the State Department's appeasement and inaction, as I 
mentioned, recently--soon after my staff visited the Embassy, 
mortars came into the Embassy from these two groups.
    There are even other more prominent Iranian-controlled 
groups acting in Iraq and I hope this bill send a message to 
them that we know who they are.
    I've also introduced an amendment that names seven 
individuals in leadership roles in various Iranian-backed proxy 
militias in Iraq.
    The amendment will require the State Department to 
determine whether they too should be designated as terrorists. 
These men have sworn allegiance to the Supreme Leader in Iran 
and have killed and displaced thousands in both Iraq and Syria.
    They are enemies of both the United States and the people 
of Iraq and the free world.
    I would also like to commend Mr. Wilson for his amendment 
to target Afghan and Pakistani mercenary brigades of the IRGC 
operating in Iraq and Syria.
    Taken together, this bill will go a long way toward 
correcting the history of paralysis and inaction of the United 
States in dealing with proxies and the attempt of Iran to make 
Iraq a puppet state.
    I also am proud to have worked closely with Ranking Member 
Engel and Mr. Adam Smith and Mr. McCaul on H.R. 5273. Too often 
we focus our efforts on trying to end violence without 
addressing the underlying issues.
    This bill is a bold attempt to change that. This bill will 
set up an initiative that will improve global, regional, and 
local coordination of efforts to prevent violence and address 
the root causes of violence.
    Importantly, this initiative will improve the effectiveness 
of U.S. foreign assistance and enshrine rigorous monitoring and 
evaluation.
    The bill will reform our approach to foreign assistance by 
having all U.S. Government agencies work together. What a novel 
approach that is.
    And I want to thank Ranking Member Engel for his leadership 
on this issue as well as my colleagues, Mr. Smith and Mr. 
McCaul.
    And lastly, in my comment in this remaining minute, I want 
to point out again, as been said before, that this committee 
works on a bipartisan basis--works very well on a bipartisan 
basis.
    Other committees in the House of Representatives should 
take note of the bipartisanship of most of the legislation that 
comes out of this committee, and I really want to commend 
Chairman Royce and Ranking Member Engel on working together on 
these very important international issues and our committee 
speaking as one voice.
    And lastly, my last comment would be I want to thank Mr. 
Engel, the ranking member, personally for the time that he has 
worked with me.
    We come from almost two foreign countries--New York and 
Texas--and I appreciate his patience over the years in dealing 
with certain issues but talking to me personally, and I want to 
thank Ranking Member Engel for his long-time involvement in 
foreign affairs and in service in Congress.
    And I'll yield back.
    Mr. Engel. Would the gentleman yield to me before he----
    Mr. Poe. Sure I'll yield.
    Mr. Engel. Yes. I want to thank the gentleman from Texas, 
who has been an outstanding, a stellar member of this 
committee.
    It's because of people like him and his intellect and his 
attitude that really has helped make this committee the 
bipartisan committee that we all strive on both sides of the 
aisle to make.
    I have always said that when it comes to foreign policy, 
politics and partisanship should stop at the water's edge. The 
threats that we have to this country are threats to all of us, 
regardless of political persuasion, and that's what I like so 
much about this committee.
    It's people like the gentleman from Texas who have added so 
much to this committee and to the dialogue through the years, 
and I certainly will miss him and I wish him godspeed and only 
the best.
    Thank you. I yield back.
    Mr. Poe. I thank the gentleman. I'll yield back my time to 
the chair.
    Mr. Smith [presiding]. Thank you.
    The chair recognizes the gentleman from Texas, Michael 
McCaul.
    Mr. McCaul. Thank you, Mr. Chairman, Ranking Member.
    I, too, would like to say what an honor it's been to serve 
with Congressman Ted Poe, my dear friend and colleague.
    We came into Congress together 15 years ago and I am going 
to miss you on a lot of levels. But you have served your 
country well, sir, and thank you so much for that.
    I'd also like to thank Congressman Smith for his leadership 
on this PEPFAR extension. Since its inception, the program has 
provided lifesaving drugs to over 14 million people.
    And I was recently at Texas Children's Hospital at an event 
with the President of Botswana, who basically described how 
this program and what the doctors at Texas Children's did was 
saved his country, in his words, from extinction.
    It's not very often we get to pass legislation in the 
Congress and hear that we saved a country from extinction 
because of a bill that Congress passed.
    So, Congressman Smith, thank you for bringing this up 
again. It's vitally important not only to Africa but to the 
world that we reauthorize this, and the importance of that 
program cannot be understated and I applaud the consideration 
of it again.
    Turning my attention, I wanted to highlight two measures 
that I introduced--the Global Fragility and Violence Reduction 
Act--which I wrote with Ranking Member Engel, and the Trans-
Sahara Counterterrorism Partnership Act.
    Both of these bills coordinate a whole of government 
approach to fight global terrorism at its root causes. Too 
often when global crises emerge the United States commits 
financial and other resources to immediately address the 
problem.
    While we must continue to tackle such imminent threats, we 
must do more to prevent threats from emerging in the first 
place.
    Now, this makes me think back to 2001. Prior to 9/11, 
Afghanistan was not a foreign policy priority of the United 
States. It was barely on anybody's radar, and so were the 
Embassies in Africa and the USS Cole and the 1993 bombing of 
the World Trade Center.
    But 17 years later, we are still in Afghanistan committing 
significant resources to rebuilding that country. Afghanistan 
was what we call a fragile state.
    Broadly speaking, these are countries where the government 
loses legitimacy in the eyes of its people and struggles to 
govern.
    What if we could identify so-called fragile states ahead of 
time and prevent them from failing? That is why I helped 
introduce the Global Fragility and Violence Reduction Act.
    This bill requires the administration to launch a global 
initiative to reduce fragility and violence, guiding our 
efforts to help fragile states down a path toward stability.
    The bill also requires the Department of State, in 
coordination with USAID and the Department of Defense, to 
identify 10 countries or regions as pilot programs to start 
this new initiative.
    Since each fragile state is different, this initiative is 
flexible to address the causes of fragility in each case. One 
area of the world where state fragility and violent extremism 
currently persists is in north and in west Africa.
    Since our operational successes against ISIS and the 
collapse of the caliphate, many of their fighters have 
splintered and fled to Africa where other terrorist 
organizations have flourished.
    Today, it is estimated that 10,000 ISIS and al-Qaeda 
jihadists have already set up camps across the continent, with 
Boko Haram and others having spread terror for years.
    These terrorist organizations pose an immediate threat and 
we must work with our regional governments to build their 
capacity to blunt these terrorists.
    My bill, which I introduced with my friend, Mr. Keating, 
authorizes also for the first time the Trans-Sahara 
Counterterrorism Partnership to aid our efforts to help fight 
these terrorists in Africa.
    This program works alongside countries like Chad and Mali 
and Nigeria to build their capacity, to conduct counter 
terrorist operations.
    This partnership also enhances the ability to monitor, 
restrain, and interject terrorist movements and strengthen the 
rule of law.
    Furthermore, my bill requires the State Department, USAID, 
and Defense Department coordinate on a counterterrorism 
strategy for Africa and deliver that strategy to the Congress.
    State fragility and, by extension, violent extremism is a 
major foreign policy challenge for the United States. But by 
taking a multifaceted multilayered approach as this bill does, 
we may be able to avert larger crises.
    Now, it's interesting to note--I mentioned 10,000 jihadists 
in Africa, and prior to 9/11 there were just several hundred 
al-Qaeda operatives--several hundred--and they pulled of 9/11.
    And now, today, while I do believe the threat has gone down 
with the collapse of the caliphate, the fact that there is 
still thousands of these jihadists in northern Africa in the 
Sahel gives me great concern and great pause.
    And so with that, I'd like to thank the ranking member and 
Mr. Keating and all the members of the committee for their 
support of this legislation.
    I yield back.
    Mr. Smith. Thank you.
    I'd like to now yield to Joe Wilson, the gentleman from 
South Carolina.
    Mr. Wilson. And thank you, Acting Chairman Chris Smith.
    I am grateful to Chairman Ed Royce and Ranking Member Eliot 
Engel for holding this markup on issues such as the very 
significant humanitarian crisis with the failure of socialism 
in Venezuela led by Congressman Paul Cook and Albio Sires--a 
bipartisan initiative--remembering the Ukrainian famine of 1932 
caused by Soviet repression and extending the President's 
emergency plan for AIDS relief, and many more.
    All of today's legislative actions are worthy of your 
attention and continue a positive bipartisan tradition of the 
committee.
    I especially want to thank Congressman Adam Kinzinger for 
introducing the Preventing Iranian Destabilization of Iraq Act 
of 2018 and the amendment introduced by Congressman Judge Ted 
Poe.
    This bill and amendment would require the President to 
impose sanctions on Iranian-backed or controlled militias that 
commit violence and threaten the stability of Iraq.
    In addition, this bill requires the Secretary of State to 
publish the list of armed groups and proxy forces in Iraq 
receiving assistance from Iran and requires a report by the 
Department of State if certain specific groups meet terrorist 
designation parameters.
    The United States must not allow Iranian influence to fill 
the void left by the defeated ISIS in Iraq and Syria. 
Emboldened and practically funded by the previous 
administration's failed Iranian nuclear deal, the Iranian 
militias are posed to incite civil war and turn Iraq into a 
failed state while also spreading throughout Syria toward the 
Israeli territory currently threatened by Hezbollah.
    Just as Iran has smuggled ballistic missiles to Yemen, Iran 
has begun to transfer ballistic missiles to these groups in 
Iraq, according to our extraordinary Ambassador to the United 
Nations, Nikki Haley.
    I have offered an additional amendment that adds two 
murderous militias to the list of groups identified in H.R. 
4591 who are destabilizing Iraq and Syria.
    One group draws recruits from Shi'a Pakistanis living in 
Iran and has engaged in battle with U.S. special forces. The 
other groups comprises Shi'a fighters from Afghanistan.
    Both groups are more than proxies. They are distinct 
brigades of the Islamic Republican Guard Corps--the IRGC Quds 
Force--and answer directly to Quds Force Commander Soleimani.
    Iran is the foremost state sponsor of terrorism and H.R. 
4591 allows the President and the Department of State to 
identify and sanction these groups in order to prevent Iran 
from inciting civil war and further spreading their malign 
regional influence.
    I urge passage of 4591 as well as the rest of today's 
meaningful legislation. I yield back the balance of our time as 
we continue a tribute to Congressman Judge Ted Poe as he is 
concluding his final year in Congress. Godspeed.
    Mr. Smith. Thank you.
    The chair recognizes the gentleman from Illinois, Mr. 
Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    There are so many good bills here and I just want to say 
thank you to everybody on all sides of the aisle that's worked 
to bring all these up.
    I think of H. Res. 1035, which is U.S. and Liberia related. 
I've been to Liberia. It's a fantastic country with a lot of 
challenges. So that's very important.
    But I do want to specifically speak on 4591, the Preventing 
Destabilization of Iraq Act. I am a veteran of Iraq and, 
specifically, I can tell you I've operated against Iranian 
forces in Iraq and about a quarter of American casualties 
during the Iraq war are directly traced and related to Iranian 
action and technologies.
    So they are no innocent nation. When you think about the 
destabilization they are doing in Syria and the \1/2\ million 
dead Syrians, many of which are children, thanks mainly to 
Bashar al-Assad, Iran, and Russia, and so it's time for us to 
stand up, especially in our ally, Iraq.
    This legislation, which I worked on with Mr. Suozzi, would 
help prevent Iran from spreading their malign influence in the 
Middle East.
    I would also like to briefly thank Chairman Poe, as many 
have, for working with us to include the important provisions 
from his bill, the Iranian Proxies Terrorist Sanction Act, and 
to H.R. 4591 and specifically for Chairman Poe's many years of 
service to his country.
    Following the elections in Iraq earlier this year, we saw 
Iranian proxies and Iraqis working on behalf of the Iranians 
attempting to form a coalition government in Baghdad.
    As a result, Iranian-backed militias have significantly 
expanded in Iraq and have not only attacked U.S. forces but 
have targeted innocent Iraqis as well.
    Just earlier this month, we saw the U.S. Embassy compound 
in Baghdad attacked and new reports are emerging that the 
Iranian regime has transferred ballistic missiles to these 
proxies in Iraq.
    Not only will this kind of interference destabilize the 
country but it's creating conditions for the next generation of 
terror.
    While these developments are concerning, I am glad to see 
that the Iraqi population has been peacefully protesting and 
demanding an end to political corruption and Iranian meddling 
in their country.
    That's why passing this legislation is so timely. The 
Preventing Destabilization of Iraq Act would impose sanctions 
such as freezing assets and travel restrictions on Iranians or 
any other person who threatens the peace and stability of Iraq.
    Passage of this legislation ensures the Iranians are not 
given a free pass to meddle in yet--again, in the affairs of 
the Iraqi people. And I have to stress doing nothing only 
strengthens the Iranians and their proxies.
    I think it's important to note that the light of Iranian 
leadership is dimming and the light of the people of Iran is 
getting brighter every day. It's just a matter of time until 
the Iranian people are able to throw off the tyrannical regime 
of Iran.
    I encourage my colleagues to pass this measure and I urge 
for quick consideration on the House floor.
    And Mr. Chairman, with that, I yield back.
    Mr. Smith. Thank you very much, Mr. Kinzinger, and thank 
you again for your service. You know, I would just note, and I 
think most on the committee know, that you got the Airman's 
Medal for saving the life of a young woman who was savagely 
attacked. You have served with great distinction and so thank 
you so very much.
    Mr. Kinzinger. Thank you.
    Mr. Smith. Thank you. I'd like to now yield to Mr. 
Fitzpatrick, the gentleman from Pennsylvania.
    Mr. Fitzpatrick. Thank you, Mr. Chairman, and I am proud to 
speak today in strong support for H. Res. 931, the resolution 
recognizing the 85th anniversary of the Ukraine famine and 
genocide.
    Between 1932 and 1933, the Ukrainian famine, known as the 
Holodomor, lead to the deaths of millions of innocent 
Ukrainians--men, women, and children alike.
    This famine was perpetrated by Joseph Stalin in an attempt 
to quash the nation's independence movement and fierce 
opposition to collectivization.
    This resolution serves as a meaningful tribute to honor 
those who met their demise at the hands of a brutal dictator 
and a brutal regime.
    It also serves as a stark reminder of the horrors of 
communism and oppression, and a message to the world that we 
must never go back and that freedom and democracy must be our 
guide, going forward.
    I am proud to stand with the Ukrainian community here at 
home and abroad in our continued fight against foreign 
aggression. The spirit of the Ukrainian people is strong and it 
is resilient, and it is this spirt that will overcome any 
adversities facing their great country.
    I am thankful to my friend from Michigan, Mr. Levin, along 
with the other co-chairs of our Ukrainian Caucus--Ms. Captor, 
Mr. Harris, for introducing this honorable resolution, along 
with myself.
    It is a pleasure serving with them to advance the cause of 
Ukrainian Americans across this country and across the world. 
We have their back.
    Mr. Chairman, I yield back.
    Chairman Royce [presiding]. We go to Mr. Steve Chabot of 
Ohio.
    Mr. Chabot. Thank you, Mr. Chairman, and I want to thank 
you for your service to this institution. For so many years now 
you've done a particularly tremendous job as chairman of this 
committee and thank you for your service. We will not forget. 
You'll be long remembered here.
    I also, as many others have, want to thank Ted Poe for his 
tremendous work on this committee and in Congress in general as 
well. You will both be missed tremendously.
    As we wrap up this Congress, we have a lot of good bills 
before us today, and many of our members have already talked 
about them. I want to focus on just a couple.
    First, I am co-sponsor of H. Res. 1006, which condemns the 
deteriorating situation in Venezuela due to the actions of 
President Maduro and his socialist party, and I want to thank 
Chairman Cook for his work on this legislation.
    Maduro has uprooted any semblance of democracy from 
Venezuela and plunged his country into its worst economic 
crisis ever and many, many people are suffering tremendously as 
a result of that.
    Conditions are so bad that over 2 million Venezuelans have 
fled their country, creating a humanitarian crisis throughout 
the region.
    Maduro and his cronies are so corrupt and abusive that we 
have sanctioned 80-some individuals, and it's pretty clear that 
many of them have committed crimes against humanity.
    Venezuela, let's remember, is right in our backyard, so we 
need to help make sure that this mess gets cleaned up, and 
sooner rather than later.
    Second, I urge my colleagues to support H. Res. 931, which 
recognizes the 85th anniversary of the Ukrainian famine, and I 
want to thank Mr. Levin for his work on this resolution.
    As a co-sponsor of this legislation I think it's vitally 
important that as the memory of the Soviet Union fades, we must 
not forget the victims of communism.
    The Ukrainian famine was caused by socialist policies and 
Stalin's deliberate efforts to prevent aid from reaching 
affected areas.
    Communism is and was and always will be evil and we must 
never forget that, particularly at a time when its running 
partner, it's cousin--socialism--seems to be getting more and 
more popular, especially, unfortunately, on many college 
campuses in this country. We must never forget that there is a 
relationship between those two entities.
    This resolution is also timely since Vladimir Putin 
continues to undermine the sovereignty of Ukraine. Like Stalin, 
he never really recognized Ukraine as an independent country.
    The West must not let Putin succeed. The safety of the 
Ukrainian people and the stability of Europe as a whole 
requires Putin to understand that he cannot invade other 
countries with impunity.
    Finally--and I want to thank Mr. Kinzinger and Judge Poe 
for their leadership on the issue of Iranian proxies in Iraq--
the Preventing Destabilization of Iraq Act seeks to help meet 
this challenge.
    Iran's hegemonic ambitions and nefarious activity have 
increasingly become one of our greatest problems in the Middle 
East, if not the greatest obstacle to bringing stability to 
that troubled region.
    One component of Iran's strategy is to grow its influence: 
It's the proxy forces in Iraq. These forces not only 
destabilize the country but also undermine our hard-won gains 
there.
    Tehran cannot be allowed to continue to build its influence 
and make Iraq a client state. It's high time that we push back 
harder and harder.
    And I know that many people have sacrificed over there 
including, as was indicated before, people like Mr. Kinzinger 
who, literally, put their lives on the line there.
    So we need to work much harder and I want to thank again 
the chairman for his leadership on this committee, and I yield 
back.
    Chairman Royce. Thank you.
    Are any other members seeking recognition?
    Okay. Hearing no further requests for recognition, the 
question occurs on the items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The measures 
considered en bloc, they are agreed to, and without objection, 
each measure in the en bloc is ordered favorably reported as 
amended as a single amendment in the nature of a substitute.
    Staff is directed to make any technical and conforming 
changes and the chair is authorized to seek House consideration 
under suspension of the rules.
    And this concludes our business today. I thank Ranking 
Member Engel, I thank Mr. Schneider for filling in here as 
ranking member for the end of the hearing, and all of the 
committee members for their contributions and assistance with 
today's markup.
    The committee stands adjourned.
    [Whereupon, at 11:23 a.m., the committee was adjourned.]

                                     
                          A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
